Supreme Court, U.S.
FILED

JAN 0 7 2020

WAIVER

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Streambend Properties II, LLC, et al.

19-799
Ivy Tower Minneapolis, LLC, et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
111 Please enter my appearance as Counsel of Record for all respondents.
El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Ivy Tower Minneapolis, LLC, Ivy Tower Development, LLC, Moody Group, LLC,.

Goben Enterprises, LP, Jeffrey Laux, and Gary Benson
I am a member of the Bar of the Supreme Court of the United States.
111 I am not presently a member of the Bar of this art. Should a response be requested, the response
will be fil
• member.
Signature

117 2024

Date.
(Type or print) Name

Tho as W. Pahl

0 Ms.
Foley & Mansfield, PLLP
El Mr.

Firm

Address

250 S. Marquette Ave., Suite 1200

City & State
Phone

❑ Miss

❑ Mrs.

Minneapolis, MN

612-338-8788

Zip
Email

55401

tpahl@foleymansfield.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Rachel K. Nelson, D. Charles Macdonald, Kerry A. Trapp

RECEIVED
JAN 1 4 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

FO LEY MANSFIELD
Chicago I Denver I Detroit I Edwardsville I Indianapolis I Kansas City I Los Angeles I Miami Minneapolis
New Orleans I New York I Portland I St. Louis I Seattle I Tampa Bay I Walnut Creek

Thomas W. Pahl

January 7, 2020

Direct Dial: (612) 338-8788
tpahl@foleymansfieldcom

Clerk of Court
U.S. Supreme Court
One First Street NE
Washington, D.C. 20543
Re:

Streambend Properties II, LLC, et al. v. Ivy Tower Minneapolis, LLC, et al.
Court File No. 19-799

Dear Clerk:
Enclosed for filing please find a Waiver form for the above-referenced matter.
Very truly yours,
/s/ Thomas W. Pahl
Thomas W. Pahl
TWP:dmr
Enclosure
c:

Rachel K. Nelson
D. Charles Macdonald
Kerry A. Trapp

Phone (612) 338-8788 Fax (612) 338-8690
250 Marquette Avenue Suite 1200 Minneapolis, MN 55401..
vvvvwfoleymansfield.com
•
1293133 v 1

